No. __________
IN THE SUPREME COURT OF THE UNITED STATES
NCHOLEION KASHANA HOLLIE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit
PROOF OF SERVICE
I, Cody L. Cofer, do swear or declare that on this date, June 25, 2021, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days.

The names and addresses of those served are as follows:
Solicitor General of the United States, Room 5614
Department of Justice,
950 Pennsylvania Ave., N.W.
Washington, D. C. 20530–0001
Prerak Shah
Acting United States Attorney
c/o Brian McKay
Assistant United States Attorney
1100 Commerce Street, Third Floor
Dallas, Texas 75242
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 25, 2021.
/s/Cody L. Cofer
Cody L. Cofer
Cofer Luster Law Firm, PC
300 Burnett Street, Suite 130
Fort Worth, Texas 76102
Phone: (682) 777-3336
Fax: (682) 238-5577
Email: ccofer@coferluster.com
Attorney for Petitioner

